Pension Benefit Guaranty Corporation
    Office of Inspector General
             Audit Report




     Fiscal Year 2011 Federal Information
     Security Management Act (FISMA)
     Independent Evaluation Report




              May 11, 2012
                                EVAL-2012-9 / FA-11-82-7
                       Pension Benefit Guaranty Corporation
                                                       Office of Inspector General
                                       1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                              May 11, 2012

To:            Richard H. Macy
               Chief Information Officer

From:          Joseph A. Marchowsky
               Assistant Inspector General for Audit

Subject:       Fiscal Year 2011 Federal Information Security Management Act
               Independent Evaluation Report (EVAL-2012-9 / FA-11-82-7)


This memo transmits the fiscal year (FY) 2011 Federal Information Security Management
Act (FISMA) independent evaluation report, detailing the results of our independent public
accountants’ review of the Pension Benefit Guaranty Corporation (PBGC) information
security program.

As prescribed by FISMA, the PBGC Inspector General is required to conduct annual
evaluations of the PBGC security programs and practices, and to report to the Office of
Management and Budget (OMB) the results of this evaluation. CliftonLarsonAllen LLP,
with PBGC OIG oversight, completed the OMB-required responses that we then submitted
to OMB on November 15, 2011. This evaluation report provides additional information on
the results of CliftonLarsonAllen’s review of the PBGC information security program.

Overall, the auditors determined that PBGC has not established an effective information
security program and has not been proactive in reviewing security controls and identifying
areas to strengthen this program. The attached report contains five new FISMA findings
with 10 recommendations. In addition, 22 FISMA-related findings with 47
recommendations were reported in the Corporation’s FY 2011 internal control report based
on our FY 2011 financial statements audit (AUD-2012-2 /FA-11-82-2). Those findings and
recommendations support the two information technology material weaknesses and formed,
in part, the adverse opinion on internal control.

PBGC’s response to the draft report indicates management’s agreement with 9 of the 10
recommendations. PBGC management did not agree with one recommendation related to
the eTalk application. In summary, OMB’s FISMA reporting template requested that an
agency report the number of “agency operational, FISMA reportable systems.” PBGC
included eTalk in its count, a system that that was no longer operational and experienced a
catastrophic failure on July 21, 2011. PBGC management asserted that only
retired/decommissioned systems should be removed from the system inventory. PBGC
management further stated that a major information system or software application that is
currently non-operational should still be maintained on the inventory, its POA&Ms tracked,
and its security posture identified in FISMA reporting. Management agreed to update
policies and procedures to better address when to officially remove a system from the
FISMA inventory. CliftonLarsonAllen and OIG determined that the catastrophic failure of
eTalk was involuntary. We agree that PBGC should continue to track eTalk throughout the
disposal process. Nevertheless, eTalk was not functioning at the time of OMB reporting
and continues to be nonoperational today. Therefore we concluded that eTalk should not
have been reported as an “operational” system.

We appreciate the overall cooperation that CliftonLarsonAllen and the OIG received while
performing the audit.

Attachment

cc:

Vince Snowbarger              Alice Maroni                   Marty Boehm
Laricke Blanchard             Patricia Kelly
Ann Orr                       Judith. Starr




                                               2
                                                                   CliftonLarsonAllen LLP
                                                                   www.cliftonlarsonallen.com




Ms. Rebecca Anne Batts
Inspector General
Pension Benefit Guaranty Corporation
1200 K Street, N.W.
Washington DC 20005-4026

Dear Ms. Batts:

We are pleased to provide the Fiscal Year (FY) 2011 Federal Information Security Management
Act (FISMA) Independent Evaluation Report, detailing the results of our review of the Pension
Benefit Guaranty Corporation (PBGC) information security program.

FISMA requires Inspectors General (IG) to conduct annual evaluations of their agency’s
security programs and practices, and to report to Office of Management and  nd Budget (OMB)
                                                                                      (
the results of their evaluations.. OMB Memorandum M-11-33, “FY 2011 Reporting Instructions
for the Federal Information Se Security
                                   curity Management Act and Agency Privacy Management”
                                                                                Management
provides instructions for completing the FISMA evaluation. Evaluations conducted by Offices
                                                                                      Office
of Inspector General (OIG) are  e intended to independently assess whether the agencies are
applying a risk-based approach to their information security programs and the information
systems that support the conduct of agency missions and business functions.

CliftonLarsonAllen LLP completed the required responses on behalf of the PBGC OIG. The OIG
then reviewed, approved, and submitted tthe responses to OMB on November 15, 2011. This
evaluation report provides additional information on the results of our review of the PBGC
information security program.

In preparing required responses on behalf of the OIG
                                                   OIG, we coordinated with PBGC management
and appreciate their cooperation in this effort
                                           effort. PBGC management has provided us with a
response (dated May 10, 2012)) to the draft FISMA 2011 Independent Evaluation Report.
                                                                               Report



a
Calverton, Maryland
May 11, 2012
                                                  TABLE OF CONTENTS

                                                                                                                                Page

I.     EXECUTIVE SUMMARY ....................................................................................................2

II.    BACKGROUND ................................................................................................................. 2

III.   OBJECTIVES .................................................................................................................... 3

IV.    SCOPE AND METHODOLOGY ......................................................................................... 3

V.     SUMMARY OF CURRENT YEAR TESTING ..................................................................... 4

VI.    FINDINGS AND RECOMMENDATIONS............................................................................ 5

VII. FISMA-RELATED FINDINGS REPORTED IN THE FINANCIAL STATEMENT AUDIT ... 11

VIII. FISMA RECOMMENDATIONS CLOSED IN FISCAL YEAR 2011................................... 19

IX.    PRIOR AND CURRENT YEARS’ OPEN FISMA RECOMMENTDATIONS ...................... 19

X.     MANAGEMENT RESPONSE........................................................................................... 20




       This document was produced for the PBGC Office of Inspector General. It is intended for
       the information and use of PBGC management and Office of Inspector General and is not
         intended to be and should not be used by anyone other than these specified parties.
I.    EXECUTIVE SUMMARY

Title III of the E-Government Act (Public Law No. 104-347), also called the Federal Information
Security Management Act (FISMA), requires agencies to adopt a risk-based, life cycle approach
to improving computer security that includes annual security program reviews, independent
evaluations by the Inspector General (IG), and reporting to the Office of Management and
Budget (OMB) and the Congress. It also codifies existing policies and security responsibilities
outlined in the Computer Security Act of 1987 and the Clinger Cohen Act of 1996.

We are reporting five (5) FISMA findings with ten (10) recommendations for Fiscal Year (FY)
2011 based on the results of our FY 2011 independent evaluation. We note that these are the
total of findings and recommendations related to information technology weaknesses. In
addition to those in this report, twenty-two (22) FISMA-related findings with forty-seven (47)
recommendations were reported in the Corporation’s FY 2011 internal control report based on
our FY 2011 financial statements audit work. Overall, we determined that the Pension Benefit
Corporation (PBGC) has not established an effective information security program and has not
been proactive in reviewing security controls and identifying areas to strengthen this program.

II.   BACKGROUND

The Pension Benefit Guaranty Corporation (PBGC) protects the pensions of nearly 44 million
workers and retirees in more than 27,000 private defined benefit pension plans. Under Title IV
of the Employee Retirement Income Security Act of 1974 (ERISA), PBGC insures, subject to
statutory limits, pension benefits of participants in covered private defined benefit pension plans
in the United States. To accomplish its mission and prepare its financial statements, PBGC
relies extensively on information technology (IT). Internal controls over these operations are
essential to ensure the confidentiality, integrity, and availability of critical data while reducing the
risk of errors, fraud, and other illegal acts.

PBGC has become increasingly dependent on computerized information systems to execute its
operations and to process, maintain, and report essential information. As a result, the reliability
of computerized data and of the systems that process, maintain, and report this data is a major
priority for PBGC. While the increase in computer interconnectivity has changed the way the
government does business, it has also increased the risk of loss and misuse of information by
unauthorized or malicious users. Protecting information systems continues to be one of the most
important challenges facing government organizations today.

Through FISMA, the U.S. Congress showed its intention to enhance the management and
promotion of electronic government services and processes. Its goals are to achieve more
efficient government performance, increase access to government information, and increase
citizen participation in government. FISMA also provides a comprehensive framework for
ensuring the effectiveness of security controls over information resources that support federal
operations and assets. It also codifies existing policies and security responsibilities outlined in
the Computer Security Act of 1987 and the Clinger Cohen Act of 1996.

PBGC operates an open and distributed computing environment to facilitate collaboration and
knowledge sharing, and support its mission of protecting the pensions of nearly 44 million
workers and retirees. It faces the challenging task of maintaining this environment, while
protecting its critical information assets against malicious use and intrusion.


                                                   2
         This document was produced for the PBGC Office of Inspector General. It is intended for
         the information and use of PBGC management and Office of Inspector General and is not
           intended to be and should not be used by anyone other than these specified parties.
The PBGC Office of Inspector General (OIG) contracted with Clifton Gunderson LLP to conduct
PBGC's FY 2011 FISMA Independent Evaluation. We performed this evaluation in conjunction
with our review of information security controls required as part of the annual financial statement
audit.

III.   OBJECTIVES

The purposes of this evaluation were to assess the effectiveness of PBGC's information security
program and practices and to determine compliance with the requirements of FISMA and
related information security policies, procedures, standards, and guidelines.

IV.    SCOPE & METHODOLOGY

To perform our review of PBGC's security program, we followed a work plan based on the
following guidance:

       • National Institute of Standards and Technology (NIST)’s Recommended Security
         Controls for Federal Information Systems – Special Publication (SP) 800-53 for
         specification of security controls.
       • NIST Special Publication 800-37, Guide for the Security Certification and Accreditation
         of Federal Information Systems, for certification and accreditation controls.
       • NIST Special Publication 800-53A, Guide for Assessing the Security Controls in Federal
         Information Systems, for the assessment of security control effectiveness.
       • Government Accountability Office (GAO)’s Federal Information System Controls Audit
         Manual (FISCAM: GAO-09-232G), for information technology audit methodology.

The combination of these methodologies allowed us to meet the requirements of both FISMA
and the Chief Financial Officer’s Act.

Our procedures included internal and external security reviews of PBGC's information
technology (IT) infrastructure; reviewing agency Plans of Action and Milestones (POA&Ms); and
evaluating the following subset of PBGC's major systems:

       •   Consolidated Financial System (CFS)
       •   Premium Accounting System (PAS)
       •   Pension and Lump Sum System (PLUS)
       •   eTalk
       •   TeamConnect
       •   Corporate Data Management System (CDMS)

We performed procedures to test (1) PBGC’s implementation of an entity-wide security plan,
and (2) operational and technical controls specific to each application such as service continuity,
logical access, and change controls. We also performed targeted tests of controls over financial
and business process applications. We performed our review from April 6, 2011 to September
30, 2011 at PBGC's headquarters in Washington DC. We also performed a security assessment
of the PLUS application in July 2011 at State Street Corporation in Quincy, Massachusetts.

This independent evaluation was prepared based on information available as of September 30,
2011.

                                                      3
            This document was produced for the PBGC Office of Inspector General. It is intended for
            the information and use of PBGC management and Office of Inspector General and is not
              intended to be and should not be used by anyone other than these specified parties.
V.   SUMMARY OF CURRENT YEAR TESTING

Our review of IT controls covered general and selected business process application controls.
General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing.

Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

The slow progress of mitigating PBGC’s systemic security control weaknesses as well as the
lack of an integrated financial management system posed increasing and substantial risk to
PBGC’s ability to carry out its mission during FY 2011. The extended time required and the lack
of meaningful progress in PBGC’s multi-year approach to correct previously reported
deficiencies at the root cause level, introduced additional risks. These include technological
obsolescence, inability to execute corrective actions, breakdown in communications and poor
monitoring. As a result, PBGC’s attempt to address entity-wide security management program
deficiencies and systemic security control weaknesses at the root cause level had minimal
effect.

PBGC’s historical decentralized approach to system development and configuration
management has exacerbated control weaknesses and encouraged inconsistency in
implementing strong technical controls and best practices. The influx of 620 plans for over
800,000 participants from 2002-2005, contributed to PBGC’s disjointed IT development and
implementation strategy. The mandate to meet PBGC’s mission objectives by implementing
technologies to receive the influx of plans superseded proper enterprise planning and IT
security controls. The result was a series of stovepipe solutions built upon unplanned and poorly
integrated heterogeneous technologies with varying levels of obsolescence.

The Corporation continued its implementation of an enterprise multi-year corrective action plan
(CAP) to address IT security issues at the root cause level. PBGC management realizes these
weaknesses will continue to pose a threat to its environment for several years while corrective
actions are being implemented. PBGC needs to implement interim corrective actions to ensure
fundamental security weaknesses do not worsen as the CAP is being implemented.

PBGC performed a more rigorous and thorough assessment and authorization (A&A) process,
formerly referred to as a certification and accreditation process. This process identified
significant fundamental security control weaknesses for its general support systems many of
which were reported in prior years’ audits. These weaknesses remain unresolved. PBGC
reports that the Corporation is in the process of performing A&As on its major applications.

We continued to find deficiencies in the areas of security management, access controls,
configuration management, and segregation of duties. Control deficiencies were also found in
policy administration and the A&As.

Our current year audit work found deficiencies in the areas of security management, access
controls, and configuration management. Control deficiencies were also found in policy
                                                   4
         This document was produced for the PBGC Office of Inspector General. It is intended for
         the information and use of PBGC management and Office of Inspector General and is not
           intended to be and should not be used by anyone other than these specified parties.
administration, and the certification and accreditation of major applications and contractor
systems. An effective entity-wide security management program requires a coherent strategy for
the architecture of the IT infrastructure, and the deployment of systems. The implementation of
a coherent strategy provides the basis and foundation for the consistent application of policy,
controls, and best practices. PBGC needs to continue development and implementation of its
CAP to address its programmatic IT weaknesses. This framework will require time for effective
control processes to mature.

Based on our findings, we are reporting deficiencies in the following areas for FY 2011:
       1.   Entity-wide security program planning and management,
       2.   Access controls and configuration management,
       3.   Information Technology Controls for The Protection of Privacy,
       4.   Plan of Action and Milestones (POA&M),
       5.   Miscellaneous FISMA Controls.
The financial internal control findings related to entity-wide security program planning and
management, access controls and configuration management were reported in the Report on
Internal Controls Related to the Pension Benefit Guaranty Corporation’s Fiscal Year 2010 and
2011 Financial Statements Audit (AUD-2012-2 /FA-11-82-2) issued on November 14, 2011. As
a result of our findings, we made recommendations to correct the deficiencies. A table
summarizing these findings is in Section VII of this report.

In addition, our audit also found deficiencies specifically related to responses required by OMB
Memorandum M-11-33 which are included in this report. These findings and recommendations,
not previously reported, are as follows.

VI.   FINDINGS AND RECOMMENDATIONS

1. Entity-wide security program planning and management

The eTalk application was listed as a major application in the FY 2011 PBGC systems inventory
and reported as an “Agency operational, FISMA reportable” system in PBGC’s November 15,
2011 submission to OMB. However, it was not available in PBGC’s production environment; the
eTalk application experienced a catastrophic incident on July 21, 2011, and was no longer
operational. PBGC is currently exploring alternative solutions for a new system.

eTalk is a monitoring software/recording system that provides PBGC with the ability to monitor
and evaluate calls for internal and third-party quality review. eTalk captures/records incoming
participant calls from the Customer Contact Center's (CCC) 1-800 number. eTalk Qfiniti was
purchased as a solution to provide internal quality review and evaluation in order to meet
PBGC’s performance measures goal to examine and improve the effectiveness of the customer
service that PBGC provides. The eTalk system assists PBGC in meeting its strategic plan to
improve the federal pension insurance program by providing exceptional customer service to its
plan participants.

For FY 2011, OMB Memorandum 11-33 provided Federal agencies with instructions for
reporting their compliance with FISMA and certain privacy requirements. In the OMB-mandated
FISMA template, the first question in Section 1 asks each agency to summarize its system
inventory; specifically:

                                                   5
         This document was produced for the PBGC Office of Inspector General. It is intended for
         the information and use of PBGC management and Office of Inspector General and is not
           intended to be and should not be used by anyone other than these specified parties.
       For each of the FIPS 199 system categorized impact levels in this question,
       provide the total number of Agency operational, FISMA reportable, systems by
       Agency     component     (i.e.  Bureau     or    Sub-Department    Operating
       Element). [emphasis supplied]

This concept of “operational” – commonly called “availability” - is a fundamental component of
information security, as defined in FISMA at 44 U.S.C. § 3542 and reiterated in the standards
prescribed in the Federal Information Processing Standards Publication (FIPS Pub) 199
Standards for Security Categorization of Federal Information and Information Systems:

       (1) The term “information security” means protecting information and information
           systems from unauthorized access, use, disclosure, disruption, modification,
           or destruction in order to provide—
                                             *     *      *
           (C availability, which means ensuring timely and reliable access to and use
               of information.

As of the November 15, 2011 OMB mandated reporting deadline for agency inventory, eTalk
had been off-line for more than three months and remains non-operational as of the date of this
report. Therefore, including eTalk in the count of operational systems for FISMA reporting was
incorrect. Failure to accurately report inventory information to OMB hinders its ability to assess
the implementation of security capabilities and measure their effectiveness.

Recommendation:

   o   PBGC should ensure that it answers and provides information to OMB as requested.
       (OIG Control Number FISMA 11-01)

       Management Response

       o     Response: PBGC disagrees with both the finding and the recommendation. FISMA
             asks for information on "Operational" systems. However, PBGC believes (and OMB
             has validated) that this is not a short-term but a long-term meaning. We agree that
             retired/decommissioned systems should be removed from the system inventory.
             However, if a major information system or software application is currently non-
             operational, we believe it should still be maintained on the inventory, its POA&Ms
             tracked, and its security posture identified in FISMA reporting. In terms of impact of
             this finding, we see no harm in continuing to classify this system as part of the
             FISMA inventory, especially since PII data and other security risks may continue to
             reside in the system. Further, we believe that our reporting to FISMA was accurate
             and provided useful information to OMB. Nevertheless, we do see a need for our
             policies to better address when to officially remove a system from the FISMA
             inventory and we will clarify our procedures to state that this will occur upon
             retirement and decommissioning.

       Auditor’s Note

             The eTalk system experienced a catastrophic failure on July 21, 2011 and PBGC
             was unable to reconstitute the system. This event was not a voluntary removal and
             did not follow an orderly decommissioning process. Accordingly, the eTalk
                                                     6
           This document was produced for the PBGC Office of Inspector General. It is intended for
           the information and use of PBGC management and Office of Inspector General and is not
             intended to be and should not be used by anyone other than these specified parties.
             application was not operational at the reporting date. We agree with PBGC that the
             agency should continue to track the system during the remainder of the disposal
             process.

             Major applications require certain minimum security controls, including availability
             (i.e. operational) as defined in FISMA at 44 U.S.C. §3542 and reiterated in the
             standards prescribed in the Federal Information Processing Standards Publication
             (FIPS Pub) 199 Standards for Security Categorization of Federal Information and
             Information Systems, noted in the finding. We continue to believe that eTalk should
             not be reported as operational.

2. Privacy

PBGC has not implemented controls to remove all PII in the development environment, and
encrypt backup tapes containing PII information.

Recommendations:

   o   Remove PII from the development environment. (OIG Control Number FISMA-11-02)

       Management Response

       o     Response: PBGC agrees. We have been discussing the best approach to this and
             have established a project to develop a data masking strategy to include categories
             of production data that need obfuscation and the selection of a data obfuscation tool.
             This is targeted to be completed by October 2012. From this, we plan to begin
             masking production data in nonproduction environments in FY 13.

   o   Encrypt and secure backup tapes that contain PII. (OIG Control Number FISMA-11-03)

       Management Response

       o     Response: PBGC Agrees. As of December 31, 2011, all tape backups, excluding the
             legacy services of the Imaging Processing System (IPS), use Advanced Encryption
             Standard (AES) 256 bit encryption by way of the Symantec NetBackup software. We
             plan to address encryption of the IPS legacy services by June 2012.

PBGC has not taken necessary steps to protect privacy sensitive information in the Corporate
Data Management System (CDMS) application. Because PBGC has not completed the security
categorization of CDMS, it has not determined the minimum security requirements to be
implemented for the CDMS application. PBGC also has not conducted a Privacy Impact
Assessment (PIA) for the system, although CDMS contains PII. Additionally, user access
recertification is not performed on a periodic basis and there is no formalized process to ensure
appropriateness of access to CDMS.

Recommendations:

   o   Complete the security categorization of PBGC information systems. (OIG Control
       Number FISMA-11-04)


                                                     7
           This document was produced for the PBGC Office of Inspector General. It is intended for
           the information and use of PBGC management and Office of Inspector General and is not
             intended to be and should not be used by anyone other than these specified parties.
       Management Response

       o     Response: PBGC agrees. It is essential to properly categorize PBGC's information
             systems in order to ensure that the proper authorization boundaries are established
             in support of the mission, business objectives, and the enterprise architecture; and to
             ensure that based on the information sensitivity, the appropriate security controls
             baseline (low, moderate, or high) is selected. PBGC's new information security
             policy, which was published in April 2012, requires that systems undergo security
             categorization in accordance with FIPS 199 and FIPS 200. In anticipation of this
             policy and following newly established OIT governance processes, OIT published
             SE-STD-01-13, PBGC Security Categorization Standard dated December 14,2012
             that defines the requirements of system categorization. OIT published OIT
             Information Systems Registration Process dated November 14, 2011 that defines the
             steps to complete a classification and determination memo, a FIPS 199
             determination, privacy threshold analysis and privacy impact assessment (if the
             system contains privacy data). All major information systems that were previously
             included in the PBGC FISMA inventory have been through the categorization
             process. Additionally, we now categorize all new subsystems, software applications
             and tools as they come into the enterprise, following this process. We are continuing
             to identify and categorize legacy software applications that number in the dozens to
             ensure that they are properly labeled as major information systems or whether they
             are subsystems, applications or tools that are contained within an existing major
             information system boundary.

   o   Implement minimum security requirements to secure the CDMS application. (OIG
       Control Number FISMA-11-05)

       Management Response

       o     Response: PBGC agrees. We have completed the FIPS-199 Categorization and
             Classification Determination. The Privacy Impact Assessment is completed. We plan
             to update the Security Plan as well as internally test security controls and complete
             vulnerability Scan in April. Annual Account Recertification is targeted to be complete
             by May, 2012. PBGC will identify an appropriate time for an independent Security
             Assessment and Authorization based on POA&Ms generated for the above.

   o   Conduct and document a Privacy Impact Assessment for CDMS. (OIG Control Number
       FISMA-11-06)

       Management Response

       o     Response: PBGC Agrees. The Privacy Impact Assessment was completed April 3,
             2012.

3. Plan of Action and Milestones (POA&M) (repeated from prior years)

PBGC is still working on the process of consolidating its POA&Ms. The process is not fully
developed and implemented. PBGC management did not provide us with a copy of the entity
wide POA&M. Lack of an up-to-date and consolidated POA&M could result in identified security
deficiencies not being properly tracked and monitored, and thereby not remediated in a timely
                                                     8
           This document was produced for the PBGC Office of Inspector General. It is intended for
           the information and use of PBGC management and Office of Inspector General and is not
             intended to be and should not be used by anyone other than these specified parties.
manner. As part of the “Governance” Individual Corrective Action Plan (iCAP), the Chief
Information Officer (CIO)’s security program and security processes are being redone with an
expected completion date of Fall 2011. PBGC provided the Office of Information Technology
(OIT)’s initial data call for POA&M items, which are being rolled up and consolidated in order for
OIT to provide management support, oversight, and advice to the CIO and other PBGC
management officials regarding residual risk posed by deficiencies in these systems. While
PBGC has taken initial steps to develop a consolidated POA&M process, more work remains to
be done, including developing an entity-wide POA&M. Therefore, this finding continued for FY
2011.

Recommendations:

   o   Develop, maintain and update PBGC’s entity-wide plan of action and milestones, at least
       on a quarterly basis, and ensure it includes all entity-wide security deficiencies noted.
       (OIG Control Number FISMA-09-08)

       Management Response

       o     Response: PBGC agrees and established an Enterprise POA&M last fall. It includes
             all enterprise-wide security deficiencies that are not captured in system specific
             POA&Ms. It is updated at least quarterly. PBGC's official POA&M Process was
             officially approved in December, 2011.

   o   Disseminate PBGC’s entity wide POA&M to all responsible parties to ensure corrective
       actions are taken in accordance with POA&M. (OIG Control Number FISMA-09-09)

       Management Response

       o     Response: PBGC agrees and uses the Enterprise POA&M as a management tool
             with all responsible parties to track progress on remediating deficiencies.

PBGC’s POA&M process is ineffective. We noted the following deficiencies in FY 2009, FY
2010 and again in FY 2011:
      − No evidence that reports on the progress of security weakness remediation is being
          provided to the Chief Information Officer (CIO) on a regular basis.
      − No evidence that the PBGC CIO centrally tracks, maintains, and independently
          reviews/validates POA&M activities on at least a quarterly basis.

PBGC Management has started the process of consolidating POA&Ms for PBGC systems,
educating system owners on the POA&M process and collecting items needed to manage the
process; however, management has not completed the process, including CIO reviews.
According to the PBGC Corrective Action Plan, the CIO’s security program and security
processes are being redone with an expected completion date of Fall 2011. While PBGC has
implemented additional processes in FY 2011, such as implementing a process to develop an
entitywide POA&M, other POA&M process improvements related to consolidating POA&Ms
across PBGC are not complete as of August 2011, and therefore were not available for review
during this audit period. This finding continued for FY 2011.




                                                     9
           This document was produced for the PBGC Office of Inspector General. It is intended for
           the information and use of PBGC management and Office of Inspector General and is not
             intended to be and should not be used by anyone other than these specified parties.
Recommendations:

  o   Ensure that the agency and program specific plan of action and milestones are tracked
      appropriately and provided to PBGC’s CIO regularly. (OIG Control Number FISMA-09-
      10)

      Management Response

      o     Response: PBGC agrees. The official procedures were approved in December, 2011
            and are in the process of being implemented across all major systems and should be
            fully implemented by July 2012.

  o   Ensure PBGC’s CIO centrally tracks, maintains and independently reviews/validates
      POA&M activities, at least on a quarterly basis. (OIG Control Number FISMA-09-11)

      Management Response

      o     Response: PBGC agrees. Official POA&M procedures were approved in December,
            2011 and POA&Ms are currently consolidated and presented to the CIO at least four
            times each year. We are targeting April 2012 to have all POA&Ms converted to the
            standard format from the legacy formats that have been used.




                                                    10
          This document was produced for the PBGC Office of Inspector General. It is intended for
          the information and use of PBGC management and Office of Inspector General and is not
            intended to be and should not be used by anyone other than these specified parties.
     VII.   FISMA-RELATED FINDINGS REPORTED IN THE FINANCIAL STATEMENT AUDIT

     The following table summarizes FISMA-related findings noted under entity-wide security
     program planning and management, access controls, and configuration management, that were
     reported in the Report on Internal Controls Related to the Pension Benefit Guaranty
     Corporation’s Fiscal Year 2011 and 2010 Financial Statements Audit (AUD-2012-2 /FA-11-82-2)
     issued November 14, 2011.

                    Finding Summary                                           Recommendation
1.     Weaknesses in PBGC’s infrastructure               Effectively communicate to key decision makers the
       design and deployment strategy for                state of PBGC’s IT infrastructure and environment to
       systems      and     applications    adversely    facilitate the prioritization of resources to address
       affected its ability to effectively implement     fundamental weaknesses. (OIG Control Number FS-
       common security controls across its               09-01)
       systems and applications. Without full
       development and implementation, security          Document and execute the details of the specific
       controls are inadequate; responsibilities are     actions needed to complete and confirm the design,
       unclear, misunderstood, and improperly            implementation, and operating effectiveness of all 130
       implemented;        and       controls     are    identified common security controls. (OIG Control #
       inconsistently applied. Such conditions lead      FS-08-01 *Modified)
       to insufficient protection of sensitive or
       critical resources or disproportionately high     Develop a process to review and validate reported
       expenditures for controls.                        progress on the implementation of the common
                                                         security controls. Implement a strategy to test and
                                                         document the effectiveness of each new control
                                                         implemented. (OIG Control Number FS-09-02)

2. PBGC continued the implementation of its              Develop and implement a well-designed security
   CAP to address fundamental weaknesses in              management program that will provide security to the
   its entity-wide security program planning and         information and information systems that support the
   management. During FY 2011, PBGC began                operations and assets of the Corporation, including
   the implementation of a more rigorous and             those managed by contractors or other Federal
   thorough A&A process. Through this                    agencies. (OIG Control Number FS-09-03)
   process,      PBGC      identified  significant
   fundamental security control weaknesses for           Complete the development and implementation of the
   its general support systems, many of which            redesign of PBGC’s IT infrastructure and the
   were reported on in prior years’ audits. While        procurement and implementation of technologies to
   this is an important step in the planning             support a more coherent approach to providing
   process, these security control weaknesses            information services and information system
   remain unresolved and PBGC’s efforts lack             management controls. (OIG Control Number FS-09-
   sufficient meaningful and incremental                 04)
   progress. PBGC reports that they are in the
   process of performing A&As on its major               Implement an effective review process to validate the
   applications. The slow rate of progress has           completion of the A&A packages for all major
   introduced      additional    risks  including        applications. The review should not be performed by
   technological obsolescence, inability to              an individual associated with the performance of the
   execute corrective actions, breakdown in              A&A, or by someone who could influence the results.
   communications and poor monitoring.                   This review should be completed for all components of
                                                         the    work    performed    to   ensure    substantial
                                                         documentation is available that supports and validates
                                                        11
              This document was produced for the PBGC Office of Inspector General. It is intended for
              the information and use of PBGC management and Office of Inspector General and is not
                intended to be and should not be used by anyone other than these specified parties.
                Finding Summary                                         Recommendation
                                                      the results obtained. (OIG Control # FS-08-02
                                                      *Modified)

                                                      Ensure that adequate documentation is maintained
                                                      which supports, substantiates, and validates all results
                                                      and conclusions reached in the A&A process for all
                                                      major applications. (OIG Control # FS-09-05
                                                      *Modified)

                                                      Establish and implement comprehensive procedures
                                                      and document the roles and responsibilities that
                                                      ensure oversight and accountability in the A&A review
                                                      process for major applications. Retain evidence of
                                                      oversight reviews and take action to address
                                                      erroneous or unsupported reports of progress. (OIG
                                                      Control # FS-09-06 *Modified)

                                                      Maintain an accurate and authoritative inventory list of
                                                      major applications and general support systems.
                                                      Ensure the list is disseminated to responsible staff and
                                                      used consistently throughout PBGC Office of IT (OIT)
                                                      operations. (OIG Control Number FS-09-07)

                                                      Implement an independent and effective review
                                                      process to validate the completion of the A&A
                                                      packages for all major applications. (OIG Control #
                                                      FS-08-03 *Modified)

                                                      Implement an independent and effective review
                                                      process to validate the completion of the A&A
                                                      packages for general support systems hosted on
                                                      behalf of PBGC by third party processors. The
                                                      effective review should include examining host and
                                                      general controls risk assessments. (OIG Control # FS-
                                                      08-03 *Modified)

3.   Information      security     policies   and Continue to disseminate the awareness of PBGC’s
     procedures were not fully disseminated and security policies and procedures through adequate
     implemented. PBGC is not able to training. (OIG Control # FS-07-04 *Modified)
     effectively enforce compliance for Security
     Awareness training. PBGC currently has a
     cumbersome and error-prone manual
     process to account for personnel who have
     completed security awareness training. The
     process is ineffective and limits PBGC’s
     ability to ensure that all required personnel
     have completed security awareness
     training.

                                                     12
           This document was produced for the PBGC Office of Inspector General. It is intended for
           the information and use of PBGC management and Office of Inspector General and is not
             intended to be and should not be used by anyone other than these specified parties.
                  Finding Summary                                         Recommendation
4.   In FY 2010, PBGC’s benefit payments               Develop and implement an immediate plan of action to
     service     provider   (service     provider)     address the potential security risk posed by locating
     implemented a security operations center          the SOC outside of the US. (OIG Control # FS-10-01)
     (SOC) outside of the United States (US),
     without providing PBGC adequate advance           Review PBGC contracts to ensure contractors are
     notice. In FY 2011, PBGC completed a risk         required to comply with PBGC information security
     assessment, but it did not contain adequate       standards and the Federal Information Security
     evidence to verify and validate the technical     Management Act (FISMA). (OIG Control #FS-10-02)
     security risks of the SOC. Because the
     SOC has some responsibility for monitoring        Ensure that adequate controls in the design and
     security-related events associated with the       implementation of the SOC are in place to protect
     PLUS application and components of its            PBGC PLUS. (OIG Control Number # FS-11-01)
     system boundary, it is important PBGC
     assess risks to its systems and implement
     mitigating controls to ensure compliance
     with PBGC’s policies and procedures.

5.   PBGC has not executed interconnection             Develop controls and implement an ISA and MOU with
     security     agreements      (ISA)    or          all external organizations whose systems connect to
     memorandums of understanding (MOU)                PBGC’s systems. (OIG Control # FS-10-03
     between all external organizations whose          *Modified)
     systems    interconnect   with    PBGC’s
     systems. Controls to require such
     agreements do not exist.

     PBGC is in the process of planning and
     documenting security agreements for
     interconnection     with    all     external
     organizations’ systems. In the absence of
     an ISA and MOU, either party (PBGC or
     external system owner) may be unfamiliar
     with the technical requirements of the
     interconnection and the details that may be
     required to provide overall security for
     systems that are interconnected.

6.   PBGC’s configuration management controls          Develop and implement procedures and processes for
     are labor intensive and ineffective.              the    consistent  implementation      of   common
     Weaknesses in the design of PBGC’s                configuration management controls to minimize
     infrastructure and deployment strategy for        security weaknesses in general support systems. (OIG
     systems and applications created an               Control Number FS-07-07)
     environment     where strong     technical
     controls and best practices cannot be             Develop and implement a coherent strategy for
     effectively   implemented.  Configuration         correcting IT infrastructure deficiencies and a
     management controls are therefore not             framework for implementing common security controls,
     consistently implemented across PBGC’s            and mitigating the systemic issues related to access
     general support systems. PBGC’s three IT          control by strengthening system configurations and
     environments (development, test, and              user account management for all of PBGC’s
     production) do not share common server            information systems. (OIG Control Number FS-09-12)
                                                      13
            This document was produced for the PBGC Office of Inspector General. It is intended for
            the information and use of PBGC management and Office of Inspector General and is not
              intended to be and should not be used by anyone other than these specified parties.
                 Finding Summary                                          Recommendation
     configurations; therefore, management             Establish baseline configuration standards for all of
     cannot rely on results obtained in the            PBGC’s systems. (OIG Control Number FS-09-13)
     development or test environments prior to
     deployment in production. Overall, the            Review configuration settings and document any
     PBGC environment suffers from inadequate          discrepancies from the PBGC configuration baseline.
     configuration, roles, privileges, logging,        Develop and implement corrective actions for systems
     monitoring, file permissions, and operating       that do not meet PBGC’s configuration standards.
     system access.                                    (OIG Control Number FS-09-14)

                                                       Ensure test, development and production databases
                                                       are appropriately segregated to protect sensitive
                                                       information and also fully utilized to increase system
                                                       performance. (OIG Control Number FS-09-15)

                                                       Establish interim procedures to implement available
                                                       compensating controls (such as establishing a test
                                                       team to verify developer changes in production) until a
                                                       comprehensive solution to adequately segregate test,
                                                       development and production databases can be
                                                       implemented. (OIG Control Number FS-09-16)

7.   PBGC’s policies and practices have not Continue to remove unnecessary user and/or generic
     effectively restricted the addition of accounts. (OIG Control Number FS-07-08)
     unnecessary and generic accounts to
     systems in production. Consequently, the
     number of unnecessary and generic
     accounts grew over the years. PBGC
     management has not determined if the
     removal of all legacy generic accounts
     would disrupt production activities.

8.   Controls are not consistently implemented         Consistently implement controls to appropriately
     to appropriately segregate duties and grant       segregate duties and grant rights and privileges
     rights and privileges commensurate with           commensurate        with  the   job functions   and
     the job functions and responsibilities. PBGC      responsibilities. (OIG Control Number FS-07-09)
     does not have a coherent strategy for
     enforcing segregation of duties through           Assess the risk associated with the lack of segregation
     strong technical controls in its applications     of duties, password management, and overall
     and general support systems.                      inadequate system configuration. Discuss risk with
                                                       system owners and implement compensating controls
                                                       wherever possible. If compensating controls cannot be
                                                       implemented the system owner should sign-off
                                                       indicating risk acceptance. (OIG Control # FS-09-17
                                                       *Modified)

9.   Some developers have access to the Appropriately restrict developers’ access to production
     production environment, which exposes environment to only temporary emergency access.
     PBGC to the risk of unauthorized (OIG Control Number FS-07-10)
     modification of the application, the
                                          14
            This document was produced for the PBGC Office of Inspector General. It is intended for
            the information and use of PBGC management and Office of Inspector General and is not
              intended to be and should not be used by anyone other than these specified parties.
                Finding Summary                                    Recommendation
     circumvention of critical controls, and Assess developers’ access to production on all PBGC
     unnecessary access to sensitive data.   systems and determine if access is required based on
                                             the security principles “need to know and least
                                             privilege.” If developers require access to a specific
                                             application, the reason should be documented and
                                             management should sign-off indicating acceptance of
                                             the risk(s). In all other instances developer access to
                                             production should be immediately removed. (OIG
                                             Control Number FS-09-18)

10. Controls are not consistently applied to           Consistently apply controls to ensure that
    ensure that authentication parameters for          authentication parameters for PBGC’s general support
    general support systems (e.g. Novell,              systems (e.g. Novell, Windows, Sun Solaris, Oracle,
    Windows, SUN Solaris, Oracle, etc.) and            etc.) and applications are in compliance with the IAH.
    applications comply with the Information           (OIG Control Number FS-07-11)
    Assurance Handbook (IAH). PBGC’s
    decentralized     approach    to    system         Implement a manual review process whereby OIT
    development         and       configuration        periodically reviews systems for compliance with
    management has made it particularly                baseline settings. (OIG Control Number FS-09-19)
    difficult to implement consistent technical
    controls across PBGC’s many systems,
    platforms, and applications.

11. PBGC’s       configuration     management          For the remaining systems, apply controls to
    weaknesses have contributed significantly          remove/disable inactive and dormant accounts after a
    to its inability to effectively implement          specified period in accordance with the IAH. (OIG
    controls to ensure the consistent removal          Control # FS-07- 12 *Modified)
    and locking out of generic or dormant
    accounts. The lack of controls to
    remove/disable inactive accounts and
    dormant     accounts     exposes   PBGC’s
    systems to exploitation and compromise.

12. The OIT recertification process is                 Complete the implementation of the recertification
    incomplete and only addresses generic and          process for all user and system accounts. Continue to
    service accounts; it does not include all          perform annual recertification and include all PBGC’s
    user and system accounts. In addition, the         accounts (e.g. user, generic, service, and systems
    Recertification of User Access Process,            accounts) for general support systems and major
    version 4.0, does not explicitly state that all    applications. (OIG Control Number FS-07-13)
    accounts (e.g. user, system, and service)
    across all platforms and applications will be
    re-certified annually. PBGC’s infrastructure
    design and configuration management
    weaknesses have contributed significantly
    to its inability to effectively implement
    controls to recertify all user and system
    accounts.


                                                      15
            This document was produced for the PBGC Office of Inspector General. It is intended for
            the information and use of PBGC management and Office of Inspector General and is not
              intended to be and should not be used by anyone other than these specified parties.
                 Finding Summary                                         Recommendation
13. Vulnerabilities found in key databases and         Implement controls to remedy vulnerabilities noted in
    applications     include     weaknesses       in   key databases and applications such as weaknesses
    configuration, roles, privileges, auditing, file   in configuration, roles, privileges, auditing, file
    permissions, and operating system access.          permissions, and operating system access. (OIG
    These PBGC system vulnerabilities are              Control Number FS-07-14)
    caused by an ineffective deployment
    strategy in the development, test, and             Implement controls to remedy weaknesses in the
    production      environments.       Ineffective    deployment of servers, applications, and databases in
    system deployments have resulted in an             the development, test, and production environments.
    environment that is in disarray. Security          (OIG Control Number FS-09-20)
    control weaknesses and vulnerabilities in
    key databases remain unresolved. These
    control weaknesses are scheduled to be
    corrected in 2013. These weaknesses
    expose PBGC to increased risk of data
    modification or deletion. Unauthorized
    changes could occur and not be detected.

14. Access request authorizations were not             Ensure that adequate documentation of access
    appropriately documented. PBGC has not             authorization is maintained by implementing proper
    fully implemented controls to ensure               monitoring and enforcement measures in compliance
    Enterprise Local Area Network (ELAN)               with approved policies and procedures. (OIG Control
    forms are properly documented and                  Number FS-07-15)
    maintained.

15. PBGC lacks an effective process to track           Update and enforce directive PM 05-1, PBGC
    contractors throughout their employment at         Entrance on Duty and Separation Procedures for
    PBGC, including appropriate notifications of       Federal and Contract Employees, to ensure contract
    start dates and separation. PBGC updated           personnel can be tracked effectively. Also, ensure a
    its directive PM 05-1, PBGC Entrance on            formal Entrance on Duty and Separation Clearance
    Duty and Separation Procedures for                 process is followed. (OIG Control Number FS-07-16)
    Federal and Contract Employees, in FY
    2011 to provide for the effective
    enforcement of controls designed to track
    entrance and separation of all Federal and
    contract     employees.     However,     the
    implementation PM 05-1 has not reached a
    level of maturity to test and validate the
    effectiveness of these controls.

16. Periodic logging and monitoring of security-       Implement a logging and monitoring process for
    related events for PBGC’s applications             application security-related events and critical system
    were inadequate Consolidated Financial             modifications (e.g. CFS, PAS, TAS, PRISM, and
    Systems (CFS), Premium Accounting                  IPVFB). (OIG Control Number FS-07-17)
    System (PAS), Trust Accounting System
    (TAS), Participant Records Information
    Systems Management (PRISM), and
    Integrated Present Value of Future Benefits
    (IPVFB) systems. PBGC’s IT infrastructure
                                                       16
            This document was produced for the PBGC Office of Inspector General. It is intended for
            the information and use of PBGC management and Office of Inspector General and is not
              intended to be and should not be used by anyone other than these specified parties.
                Finding Summary                                             Recommendation
    consists of multiple legacy systems and
    applications (e.g. PAS, TAS, IPVFB,
    PRISM, etc.) that do not have a coherent
    architecture for management and security.

17. The application virtualization/application        Replace the Citrix MetaFrame presentation server.
    delivery    product   Citrix   MetaFrame          (OIG Control #FS-10-04)
    Presentation Server used by PBGC’s
    benefit payments service provider to              Include the application virtualization/application
    connect to its benefit payments system,           delivery product used by the benefit payments service
    PLUS, reached its end of life date on             provider to access the PLUS application in the system
    December 31, 2009. PBGC did not include           boundary. (OIG Control # FS-10-05)
    the Citrix MetaFrame Presentation Server
    in the system boundary when conducting
    the A&A of the PLUS application.

18. Privileged TeamConnect group accounts             Establish unique accounts for each user            in
    use shared accounts to grant access to            TeamConnect. (OIG Control Number FS-11-02)
    users. The activity by these privileged users
    cannot be tracked and/or traced to an             Restrict developer’s access to production. (OIG
    individual user. Additionally, TeamConnect        Control Number FS-11-03)
    developers have access to both the
    development and production system.                Implement a log review process that does not rely on
                                                      the TeamConnect’s developers reviewing the logs.
                                                      (OIG Control Number FS-11-04)

                                                      Implement compensating controls for log and review of
                                                      changes made by powerful shared accounts. (OIG
                                                      Control Number FS-11-05)

19. An MOU between PBGC and the service               Obtain a contract system representative signature on
    provider for the PLUS application was             the PLUS MOU or alternatively, develop an
    executed within PBGC between PBGC                 interconnection security agreement (ISA) between
    federal employees and not with the service        PBGC and the benefit payments service provider for
    provider. This MOU is needed to document          the connection. (OIG Control Number FS-11-13)
    the service provider’s responsibilities and
    security requirements for PLUS, however, it
    serves no purpose since the service
    provider did not sign it. Further, executing
    the MOU between federal employees and
    omitting the service provider demonstrates
    a lack of understanding of the purpose and
    importance of the agreement.

20. PBGC did not review the service provider Annually review contractor access recertifications for
    personnel’s access to the PLUS system to the benefit payments service provider employees with
    ensure the personnel were appropriately access to PLUS. (OIG Control Number FS-11-14)
    recertified. PBGC relies upon the service

                                                     17
           This document was produced for the PBGC Office of Inspector General. It is intended for
           the information and use of PBGC management and Office of Inspector General and is not
             intended to be and should not be used by anyone other than these specified parties.
                 Finding Summary                                            Recommendation
    provider to test recertification and to assert
    that individuals have the proper access to
    the system. PBGC performed no further
    review to test the service provider’s
    assertion that user access is appropriate.
    The risk to PBGC is increased as the
    service provider’s PLUS users typically
    have greater access to the PLUS system
    than users at PBGC.

21. PBGC did not conduct a review of the Review the PLUS contingency plan for compliance
    PLUS System Contingency Plan until July with NIST SP 800-34 requirements. (OIG Control
    2011    when      we     requested     the Number FS-11-15)
    documentation as part of the financial
    statement audit. Even after receipt of the
    document, PBGC did not evaluate the
    scope of the contingency plan nor did
    PBGC assess the plan’s compliance with
    NIST SP 800-34 requirements.

22. Our assessment of the information PBGC            Develop and implement a policy to identify and
    provided as support for assessing the risk        document the risks associated with PBGC operations
    of operating a SOC in a foreign country           performed in foreign countries, ensure appropriate
    found that PBGC’s risk assessment was not         management review, and take appropriate actions to
    adequate. Information relied upon included        mitigate identified risks. (OIG Control Number # FS-
    a generic overview of connectivity which did      11-16)
    not demonstrate specifics on encryption
    end points, protocol filters, source and          For the PLUS SOC operating in a foreign country
    destination      filters and     intervening      revise the existing risk assessment to identify and
    infrastructure component locations critical       document risks, and take appropriate actions. (OIG
    to the analysis of any design investigations.     Control Number # FS-11-17)
    Further, PBGC did not address the
    verification of background checks for the
    employees of the foreign country SOC and
    PBGC was unable to adequately assess
    the risks of the SOC implementation.




                                                     18
           This document was produced for the PBGC Office of Inspector General. It is intended for
           the information and use of PBGC management and Office of Inspector General and is not
             intended to be and should not be used by anyone other than these specified parties.
VIII. FISMA RECOMMENDATIONS CLOSED IN FISCAL YEAR 2011

        OIG Control Number              Date Closed                     Original Report Number
        FISMA-10-01                     October 5, 2011                 EVAL 2011-9/FA-10-69-8
        FISMA-09-07                     October 5, 2011                 AUD-2010-6/FA-09-64-6
        FISMA-09-12                     October 5, 2011                 AUD-2010-6/FA-09-64-6


IX.   PRIOR AND CURRENT YEARS’ OPEN FISMA RECOMMENDATIONS

        OIG Control Number                               Original Report Number

        Prior Year
        FISMA-09-08                                      AUD-2010-6/FA-09-64-6
        FISMA-09-09                                      AUD-2010-6/FA-09-64-6
        FISMA-09-10                                      AUD-2010-6/FA-09-64-6
        FISMA-09-11                                      AUD-2010-6/FA-09-64-6
        Current Year
        FISMA-11-01
        FISMA-11-02
        FISMA-11-03
        FISMA-11-04
        FISMA-11-05
        FISMA-11-06




                                                  19
        This document was produced for the PBGC Office of Inspector General. It is intended for
        the information and use of PBGC management and Office of Inspector General and is not
          intended to be and should not be used by anyone other than these specified parties.
X.   MANAGEMENT RESPONSE




                                                 20
       This document was produced for the PBGC Office of Inspector General. It is intended for
       the information and use of PBGC management and Office of Inspector General and is not
         intended to be and should not be used by anyone other than these specified parties.
                                          21
This document was produced for the PBGC Office of Inspector General. It is intended for
the information and use of PBGC management and Office of Inspector General and is not
  intended to be and should not be used by anyone other than these specified parties.
                                          22
This document was produced for the PBGC Office of Inspector General. It is intended for
the information and use of PBGC management and Office of Inspector General and is not
  intended to be and should not be used by anyone other than these specified parties.
If you want to report or discuss confidentially any instance of misconduct,
   fraud, waste, abuse, or mismanagement, please contact the Office of
                             Inspector General.



                              Telephone:
                   The Inspector General’s HOTLINE
                           1-800-303-9737

          The deaf or hard of hearing, dial FRS (800) 877-8339
           and give the Hotline number to the relay operator.



                                   Web:
               http://oig.pbgc.gov/investigation/details.html



                                Or Write:
                 Pension Benefit Guaranty Corporation
                      Office of Inspector General
                            PO Box 34177
                    Washington, DC 20043-4177
